 Office of Inspector General
      Audit Report


DOT NEEDS TO IMPROVE ITS TRACKING
AND MONITORING OF ALL SINGLE AUDIT
 FINDINGS IN ORDER TO EFFECTIVELY
         MANAGE GRANTS
        Department of Transportation

        Report Number: FI-2012-037
       Date Issued: December 28, 2011
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT Needs to Improve Its Tracking                                    Date:    December 28, 2011
           and Monitoring of All Single Audit Findings in
           Order to Effectively Manage Grants
           Department of Transportation
           Report Number FI-2012-037

  From:    Louis King                                                                Reply to
                                                                                     Attn. of:   JA-20
           Assistant Inspector General for Financial and
           Information Technology Audits

    To:    Assistant Secretary for Administration


           Before 2009, the Department awarded over an average of $50 billion annually in
           grants for transportation related projects. 1 In 2009, the American Recovery and
           Reinvestment Act (ARRA) provided the Department an additional $48 billion for
           such grants. To help ensure the proper use of grant awards, the Single Audit Act of
           1984, 2 as amended, requires each entity that expends $500,000 or more in Federal
           funds in a fiscal year to obtain an annual “single audit.” This includes an audit of
           the entity’s financial statements and schedule of Federal award expenditures, as
           well as reviews of the entity’s internal controls and compliance with laws and
           regulations. The entities, or grantees, are required to develop corrective action
           plans to address single audit findings. In turn, the Department and its Operating
           Administrations (OA) are responsible for ensuring that grantees complete the
           necessary actions in a timely manner.

           Our objectives were to determine if the OAs: (1) issue timely management
           decisions approving grantees’ corrective action plans; (2) ensure that grantees
           promptly implement corrective actions, including recovery of questioned costs;
           and (3) use single audit results to identify grantees that require close monitoring.
           As part of this audit, we reviewed single audit findings, including findings related
           to questioned costs, and findings covering grantees with significant histories of
           findings. We conducted this audit from January 2010 through September 2011 in

           1
               Based on U.S. Census Bureau data for fiscal years 2003 through 2008
           2
               Pub. L. No. 98-502 (1984) amended by Pub. L. No. 104-156 (1996)
                                                                                                                     2


accordance with generally accepted Government auditing standards. Our review
included single audit findings issued to DOT’s largest or “top 100” grantees 3 from
5 OAs. 4 These findings were issued specifically for DOT programs. Exhibit A
details our scope and methodology, including our use of statistical sampling.

BACKGROUND
Requirements for the single audit process are established by the Office of
Management and Budget’s (OMB) Circular A-133, “Audits of States, Local
Governments and Non-Profit Organizations,” 5 which was issued pursuant to the
Single Audit Act amendments. The Circular requires each Federal grantee that
expends more than $500,000 in Federal awards in a year to submit a single audit
report along with a corrective action plan that addresses each audit finding to the
Federal Audit Clearinghouse. 6 The Circular requires that each corrective action
plan include the planned actions, the anticipated completion date, and the person
responsible for the action. The awarding agency is required to issue a management
decision on the acceptability of the corrective action plan within 6 months of
receipt of the report package and to ensure that the grantee takes appropriate and
timely corrective actions. The grantee is responsible for completion of the
approved corrective actions within the established timeframes.

To facilitate this process, DOT OIG’s Single Audit Program Office (SAPO)
obtains single audit reports with DOT findings from the Clearinghouse, and
classifies the findings into one of two categories—P1 or P2 findings, according to
SAPO’s criteria. The P1 classification indicates more significant findings 7 or
questioned costs exceeding $10,000. The P2 classification indicates that DOT is
not the cognizant 8 agency or questioned costs are less than $10,000. Although
DOT is not the cognizant agency, DOT may be the primary funding agency;
additionally, these findings often specifically impact DOT programs. During fiscal
years 2006 through 2009, 192 of 384 single audits of the Department’s top
100 grantees 9 resulted in P1 or P2 single audit findings (see Figure 1).



3
    Together, the top 100 received $30 billion ARRA funds, as detailed in Exhibit C.
4
    The Federal Highway Administration (FHWA), the Federal Railroad Administration (FRA), the Federal Transit
    Administration (FTA), the Federal Aviation Administration (FAA), and the National Highway Traffic Safety
    Administration (NHTSA)
5
    Last revised June 26, 2007
6
    The Federal Audit Clearinghouse operates on behalf of OMB to assist Federal agencies in obtaining OMB Circular
    A-133 data and reporting packages.
7
    The criteria for P1 include DOT as the cognizant agency (see footnote 7) for the grantee and a finding related to a
    direct DOT award, or findings related to ARRA funds.
8
    A cognizant agency, the Federal awarding agency responsible for audit oversight, is designated by the Office of
    Management and Budget for recipients expending more than $50 million per year. The Federal awarding agency
    that provides the recipients’ predominant amount of direct funding receives this designation.
9
    See Exhibit B for a list of the top 100 grantees.
                                                                                                              3


Figure 1. Types of Single Audit Memoranda Issued to Top 100
Grantees, FY 2006 - FY 2009




Source: SAPO memoranda log

DOT Order 4600.17A, Appendix D, “Audits of Federal Assistance Recipients,”
provided departmental guidance for implementation of Circular A-133. The Order
expanded the OAs’ oversight role by stating that each OA must maintain a
mechanism for recording receipt of grantees’ single audit reports that require
corrective actions, and for monitoring the status of each action.

DOT’s Financial Assistance Guidance Manual (FAGM) 10 states that each OA
should review its grantees’ schedules of current and prior audit findings and
identify any findings related to projects that the OA funds. The OA should monitor
these areas closely through desk reviews, site visits, and follow up on corrective
action plans. When OAs believe that grantees have failed to comply with grant
terms and conditions, they can take a wide range of actions with recipients of
competitive grants 11 including written alerts to the grantee of possible grant
suspension or termination, designation of the grantee as high-risk, and temporary
withholding of payments and future awards.

Table 1 provides a summary of the criteria that applies to single audits.




10
     The FAGM is procedural guidance which was issued in March 2009 to replace DOT Order 4600.17A and
     encompasses other DOT policies and procedures.
11
     Competitive grants are issued at the OA’s discretion. In contrast, award entitlement for formula grants are
     determined by Congress.
                                                                                                                     4


Table 1. Grantee and OA Single Audit Requirements
                                                         OMB Circular          DOT Order             FAGM
                                                           A-133                4600.17A

Grantee Requirements
Submit corrective action plan                                  Yes                 Yes                 No
Implement corrective actions                                   Yes                 Yes                 No
OA Requirements
Issue management decision (6 months)                           Yes                 Yes                Yes
Maintain tracking mechanism                                     No                 Yes                Yes
Close findings (prompt corrective action)                      Yes                 Yes                Yes
Use enforcement measures                                        No                  No                Yes


RESULTS IN BRIEF
OAs issued timely management decisions (within 6 months of receiving the single
audit report) on proposed corrective action plans for high priority or P1 single
audit findings. 12 These decisions met OST’s 2009 guidance 13 on expediting of
actions on P1 findings and monthly reviews of outstanding items. However, OAs
frequently issued untimely and incomplete decisions on lower priority P2
findings. 14 For example, of the 86 P2 findings’ management decisions that we
reviewed, 15 one-third were issued after the required 6-month date or not issued at
all. Additionally, many plans did not have target action dates, identify responsible
parties, or note the OAs’ agreement or disagreement with the corrective action
plans. For example, 33 of the 86 P2 findings (38 percent) did not have target
action dates. These deficiencies occurred because OAs do not exercise sufficient
controls over processing and completing management decisions that comply with
single audit requirements.

OAs frequently did not ensure that grantees had completed planned actions to
address P1 and P2 findings in a timely manner. For example, 16 of 69 P1
findings—with questioned costs remained open for an average of 20 months.
Furthermore, OAs had no evidence of actual implementation of action plans for 55
P2 findings. These issues occurred because OAs do not have policies that (1)
require management to verify that grantees meet target action dates, or (2) identify
how untimely actions will be addressed.

12
     P1 indicates high priority compliance, internal control, or questioned cost findings (issued as OIG "action"
     memoranda).
13
     DOT Memo, “Policy and Procedures for Expediting Action on Single Audit Report Recommendations,” May 1,
     2009
14
     P2 indicates lower priority compliance or internal control findings (previously issued as OIG “information”
     memoranda).
15
     Eighty-six findings were reviewed from a statistical sample of 37 out of 114 P2 single audit reports issued fiscal
     years 2006 through 2009.
                                                                                                             5


Finally, we found that four out of the five OAs did not implement effective
systems for detecting grantees with numerous or repeated findings. Only FTA had
established a system that allows users to perform searches of grantees’ single audit
histories and obtain related documents. Three OAs used systems to monitor their
grantees that did not readily identify recurring findings or detail entire single audit
histories. OAs also did not take actions to address grantees that had numerous
findings or untimely corrective actions. DOT and OA policies and procedures do
not establish measures for tracking grantees’ single audit history or the actions to
take in cases of grantees with repeated single audit problems.

We are making a series of recommendations to assist the OAs in improving
controls over the effective use of single audits for overseeing grantees.

OAS ISSUED UNTIMELY AND INCOMPLETE DECISIONS FOR P2
FINDINGS
During fiscal years 2006 through 2009, OAs issued timely management
decisions 16 to approve corrective action plans for 10 17 of the 12 P1 findings (83.3
percent) reviewed. However, our review of a statistical sample of 86 management
decisions for P2 findings revealed that OAs did not issue timely management
decisions for 28 of those findings (32.6 percent). OMB Circular A-133 requires
agencies to render decisions within 6 months of receipt of SAPO’s report
transmittal. We estimate that 32.6 percent of P2 findings issued during the review
period did not meet this requirement. 18 Of our sampled items, 28 did not meet this
requirement. Specifically, 9 decisions were issued late and 19 were never issued.
Findings that went unaddressed related to matters such as quality assurance testing
of construction materials, cash management, and sub-recipient monitoring. Of the
nine management decisions that were issued late, six were issued over a year after
SAPO’s report transmittal. For example, SAPO transmitted a report on the City of
San Antonio to FAA in December 2008, but FAA did not issue its management
decision on the city’s corrective action plan until February 2010, 14 months later.

We also found 33 instances, or 38 percent, in which corrective action plans did not
include target action dates for completion, and 49 instances, or 57 percent, in
which they did not identify persons responsible for the corrective actions. Circular
A-133 requires these elements to promote accountability in the resolution of single
audit findings. For example, in response to a finding that conveyed a need for
sub-recipient monitoring procedures, the Illinois Department of Transportation
stated that it was testing a data system, and that once it had completed testing, it


16
   OA management is required to respond to OIG on each P1 finding’s resolution and closure.
17
   We performed preliminary testing on a random sample of 10 out of 174 P1 memos which had 12 P1 findings.
18
   Based on 90 percent confidence level with a margin of error of +/- 4.2 percentage points.
                                                                                    6


would develop a protocol. However, it did not include a timeline for the protocol’s
completion, or name the person responsible for the corrective action.

We also found 14 instances in which OAs did not express concurrence or
non-concurrence with the corrective actions, as required by OMB A-133. For
example, in its decision regarding deficiencies in the Port of Seattle’s real property
acquisition and relocation assistance, FAA received an update on the internal
controls the Port implemented. However, the FAA official did not state whether or
not he agreed with the actions.

OAs do not exercise sufficient controls over processing and completing
management decisions that comply with single audit requirements.

OAS DID NOT ENSURE THAT GRANTEES FULLY IMPLEMENTED
CORRECTIVE ACTIONS
OAs did not follow through with grantees to confirm that the grantees had
implemented corrective actions necessary to close P1 and P2 findings. Sixteen
findings with $3.7 million in questioned costs remained open for an average of
20 months after SAPO provided the report to the OA for action. In addition, the
OAs could not provide evidence that 55 of 86 P2 findings had been corrected.

OAs Did Not Ensure That Grantees Closed All P1 Findings on
Questioned Costs in a Timely Manner
While OAs closed 53 P1-related questioned cost findings during fiscal years 2008
and 2009—totaling $12.3 million—16 findings remained open from fiscal year
2006 through fiscal year 2009, totaling $3.7 million in questioned costs. At the
time of review, the target action dates for all but two findings had already passed.
The 16 open findings remained under agency review, in dispute, or awaiting
repayment for an average of 20 months past SAPO’s transmittal date. Circular
A-133 states, “The entity responsible for making the management decision shall
do so within six months of receipt of the audit report. Corrective action should be
initiated within six months after receipt.”

OAs frequently spent more than a year reviewing questioned costs to determine
validity. For example, in May 2009, SAPO transmitted a report containing three
questioned cost findings totaling $169,000 for the City of Fort Worth, Texas.
FHWA’s April 2010 management decision set July 2010 as the target action date
for resolution. However, in August 2010—15 months after SAPO’s
P1 memorandum—FHWA determined that no recovery was warranted.
                                                                                                          7


OAs Did Not Ensure That Grantees Implemented Corrective Actions
for P2 Findings
OAs could not provide evidence that grantees actually implemented corrective
actions for 55 of the 86 P2 findings (64 percent) in our sample. 19 Our testing
indicated that OAs performed at least initial follow-ups with grantees but rarely
determined whether the findings could be closed. We estimated that OAs
documented closings for only 36 percent of the P2 findings for the period
reviewed. 20 In some cases, findings were not closed for over 2 years after SAPO’s
transmittal. For example, more than 3 years after receipt of SAPO’s transmittal
dated January 2007, FTA had not closed a fiscal year 2005 finding on security
controls involving the Washington Metropolitan Area Transit Authority
(WMATA). Independent auditors cited the same finding for fiscal years 2006,
2007, and 2008.

Additionally, OAs did not ensure that grantees met target action dates. Fifty-three
of the 86 findings had target action dates, but grantees met only 24 of those dates.
Using statistical sampling techniques, we estimated that grantees met only
28 percent of the target action dates set for P2 findings included in our review
period. 21 These issues with P1 questioned costs and P2 findings occurred because
OAs’ policies and procedures on single audit findings do not clearly outline
responsibilities for follow-up on finding closings.

OAs HAVE NOT TAKEN SUFFICIENT ACTIONS TO IDENTIFY OR
ADDRESS GRANTEES WITH PROBLEMATIC FINDING
HISTORIES
Of the five OAs reviewed, four did not have adequate systems to monitor single
audit findings and none were taking actions when grantees had histories of single
audit findings. These issues occurred largely because of the absence of adequate
DOT and OA policies and procedures. For example, DOT Order 4600.17A
requires OAs to implement and maintain tracking mechanisms for recording audit
reports and monitoring corrective action status, but does not establish criteria for
tracking grantees with a history of findings.

OAs also have the authority to take a range of actions when they identify
discretionary grant recipients that accumulate numerous findings or do not
implement recommendations. These actions include withholding payments or
future awards, and designating the grantee as high risk to preclude or reduce the
risk of payments to grantees that have a history of control deficiencies over
Federal funds. DOT and OA policies and procedures are inadequate in establishing

19
     Eighty-six findings associated with 37 SAPO transmittals.
20
     Estimate based on 90 percent confidence level with a margin of error of +/- 4.4 percentage points.
21
     Estimate based on 90 percent confidence level with a margin of error of +/- 4.0 percentage points.
                                                                                             8


criteria for tracking grantees with a history of findings and prescribing when
actions are appropriate.

Four OAs’ Systems Did Not Effectively Track Single Audit Histories
Of the five OAs reviewed, only FTA could track its grantees’ single audit
histories. FRA did not have any tracking mechanism, and three OAs—FHWA,
FAA, and NHTSA—used systems that did not readily identify findings that
appeared in more than one single audit or detail entire single audit histories. As a
result of the absence of adequate tracking mechanisms, reviews of grantees’ single
audit histories require labor-intensive analyses of multiple spreadsheets. At the
headquarters level, these reviews require time-consuming consolidation of
decentralized information (see Table 2).

Table 2. OAs’ Single Audit Finding Tracking Mechanisms
                           FTA          FHWA              FAA            NHTSA       FRA

Recording mechanism IT system           Spreadsheets      Spreadsheets   Spreadsheets None
                                                                         and emails
                                              1                            2
Identifies open/ closed    Yes          Yes               Yes            No          N/A
finding status
                                                                               2
Consolidated tracking      Yes          No                No             Yes         N/A
(HQ level)
                                                                           2
Generates grantee          Yes          No                No             No          N/A
finding history
1
    FHWA does not update prior-year spreadsheets.
2
    NHTSA deletes closed findings from its spreadsheet.

FTA’s two systems allow users to perform searches of grantees’ single audit
histories and obtain related documents. FTA uses the information from these two
systems in its assessments of grantees’ risk levels. A grantee’s formulated risk
determines the level of oversight FTA will apply. However, the other OAs’
tracking mechanisms were ineffective in tracking single audit histories. For
example:

• FHWA’s headquarters financial management office collected spreadsheets
  from State divisional offices, but the spreadsheets were not consolidated to
  enable analyses of grantees’ finding histories.
• FAA’s spreadsheets were decentralized and maintained at the regional level.
• NHTSA’s audit liaison uses a consolidated spreadsheet to track open P1
  findings at the headquarters level. However, after findings are closed, the
                                                                                                                     9


  liaison deletes them from the spreadsheet. He tracks P2 findings using
  email traffic. Neither method provides an ongoing history of audit findings.
• FRA does not have written procedures or mechanisms in place that address the
  single audit process. FRA’s chief accountant stated that they had not received
  any single audit memos to date; however, he informed us that the Agency is
  developing the necessary procedures.

OAs Did Not Take Actions against Problem Grantees
We found no evidence that OAs use their authority to take actions when:
(1) grantees have significant P1 finding histories, 22 and (2) grantees do not
promptly implement corrective actions pertaining to P2 findings.

• P1 Findings: Of the top 100 grantees, we identified 10 with significant
  histories at FHWA, FTA and FAA collectively. These OAs took no
  enforcement actions when grantees had significant histories of questioned costs
  and/or non-compliance issues. 23 For example, one FHWA grantee, the State of
  Hawaii, had 12 findings during our review period. These findings covered
  various issues, including failure to verify that contractors had not been
  suspended or debarred from Federal procurement, and failure to perform the
  required monitoring of sub-awardees. FHWA informed us that prior to August
  2010, it had not considered single audit findings material and/or systemic
  enough in nature to warrant the designation of a grantee as high-risk. FHWA
  also stated that it does not withhold Federal-aid Highway Funds from grantees
  solely on the basis of single audit findings. While we acknowledge that single
  audit findings are among several mechanisms available for grant oversight, we
  believe this measure should be considered when rapid correction is needed.

• P2 Findings: FHWA and FTA also took no actions when grantees’ single
  audits detected the same P2 findings year after year. The repeated findings
  covered matters such as deficient payroll records 24 and inadequate security
  controls. For example, the State of Oklahoma had a finding on payroll issues
  for 3 years. In another example, for several years, the independent auditors
  repeatedly issued findings for WMATA’s inadequate facility security controls
  for proper safeguarding of Federally-funded equipment. However, neither
  FHWA nor FTA indicated that they took any action in these cases.




22
   We defined “significant history” as six or more P1 findings from fiscal year 2006 through fiscal year 2009. Since no
   FAA grantees met these criteria, we reviewed Gulfport-Biloxi Regional Airport Authority which had five findings.
23
   FTA followed up with its grantees through phone calls and electronic mails.
24
   Deficient payroll records include violations of the Davis-Bacon Act which requires all contractors and subcontractors
   performing work on Federally funded construction contracts to pay prevailing wage rates.
                                                                                  10


CONCLUSION
It is imperative that DOT use every tool available to improve its oversight of over
$50 billion in grants that it awards annually, particularly in an environment of
increasingly scarce resources. Single audits are valuable tools that can be used to
protect Federal grants and American taxpayers’ dollars. OAs have taken advantage
of single audits to issue timely decisions for P1 findings. However, for this tool to
be effective, agencies must better track its grantees’ single audit findings, monitor
the severity and frequency of such findings, oversee the grantees’ timely
implementation of corrective action plans, and take suitable actions against
grantees with histories of poor grant management. Without these measures fully in
place, DOT and its OAs cannot effectively prevent grant funds from landing in the
wrong hands, or from being subject to fraud, theft, and abuse.

RECOMMENDATIONS
We recommend that the Assistant Secretary for Administration update its
procedures to ensure prompt resolution of all Priority 1 and Priority 2 single audit
findings by:

1. Requiring OAs to use management decisions that clearly communicate the
   expectations and timetables for corrective actions in accordance with Circular
   A-133. Priority 2 management decisions should incorporate the same checklist
   currently in use for Priority 1 findings.

2. Requiring OAs to record and monitor their grantees’ target action dates and to
   prepare a closeout document when the actions are complete.

3. Requiring OAs to ensure timely recovery of questioned costs by setting target
   completion dates for reviews and possible cost recovery in accordance with
   Circular A-133.

4. Establishing best practices for audit finding monitoring systems. At a
   minimum, OST should establish additional guidance on monitoring systems,
   including capabilities for identifying high-risk grantees based on past-due
   findings and overall finding histories.

5. Establishing guidelines for when enforcement actions should be taken if
   grantees fail to comply with grant awards and conditions. These guidelines
   should address timelines and severity of the issue.
                                                                                 11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST with our draft report on September 13, 2011, and received its
response on November 1, 2011. OST’s response is included in its entirety as an
Appendix to this report. OST concurred with recommendation 3, and partially
concurred with recommendations, 1, 2, 4, and 5, but provided acceptable
alternative actions. OST indicated that these single audit issues would be explored
during the December Team of Transportation Audit Liaisons (TOTAL) meeting,
and best practices would be disseminated via a guidance memorandum to be
issued by January 30, 2012. We consider OST’s planned actions and timeframes to
address all five recommendations sufficient, and therefore, consider these
recommendations resolved but open pending completion of the planned actions.

While we believe OST’s actions satisfy the intent of our recommendations, we are
concerned with the Department’s characterization of the importance of single
audits in general. DOT’s management describes single audit quality concerns and
states that such audits are “at best a starting point for further consideration.” On
the other hand, GAO states that “because single audits represent the Federal
Government’s primary accountability tool over billions of dollars each year in
Federal funds provided to State and local governments and nonprofit
organizations, it is important that these audits are carried out efficiently and
effectively.” Because we recognized concerns over the quality of single audits, we
have devoted resources to conduct approximately a dozen annual quality control
reviews. While quality can be improved, single audits remain a cornerstone tool.

We are also concerned with DOT management’s analysis and conclusions. For
example, the Department’s comments downplay the 12 findings pertaining to the
State of Hawaii. Both DOT and FHWA’s management believe that these findings
were simply “procedural” in nature. As noted in our report, these findings included
failures to verify that contractors had not been suspended or debarred from Federal
procurement, and failures to perform the required monitoring of sub-awardees.
These are critical deficiencies as are others noted in our report.
                                                                                 12


ACTIONS REQUIRED

Based on OST’s response, we consider the recommendations in this report
resolved, but open pending completion of OST’s planned actions.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or Earl Hedges, Program Director, at
(410) 962-1729.

                                         #

cc: Martin Gertel, M-1
    Audit Liaison, FHWA
    Audit Liaison, FAA
    Audit Liaison, FTA
    Audit Liaison, FRA
    Audit Liaison, NHTSA
                                                                                                                    13



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.

We interviewed OA representatives and the Director of OST’s Office of Audit
Relations. To gain an understanding of OAs’ single audit resolution processes, we
performed walk-throughs of the procedures at FHWA, FAA, and FTA. For FRA
and NHTSA, we used written questionnaires to determine the processes used. We
analyzed OAs’ systems for recording grantees’ single audit histories, and their
methods for identifying grantees with repeated non-compliances. We considered
areas of possible fraud and requested auditees to advise us of any fraud-related
issues.

As part of our testing, we identified 174 Priority 1 memoranda between fiscal year
2006 through 2009. Of these, we reviewed 54 memoranda with questioned costs
findings—42 memoranda with 53 closed findings and 12 memoranda with 16
open findings. We also identified ten grantees that had six or more findings which
we deemed significant. For these ten grantees, we tested all 27 Priority 1
memoranda which included 84 findings.

We used statistical sampling to test OAs’ management decisions and follow-up on
Priority 2 findings. This technique involves the random selection of a number of
items for testing. Each item must have a measurable chance of being selected. By
using statistical sampling, auditors avoid having to review an entire population of
transactions or artifacts without sacrificing the ability to reach conclusions that
apply to the population. Because the sample is random and unbiased, auditors are
able to project the results of the sample to the population with a predictable degree
of accuracy and reliability. Major accountancy bodies, including the Government
Accountability Office, encourage or endorse the use of statistical sampling.

Our population included all Priority 2 memoranda issued to DOT’s top
100 grantees. 25 From fiscal year 2006 through 2009, the single audits resulted in
114 Priority 2 memoranda. We selected a statistical sample of 37 of 114 Priority 2
memoranda. These 37 Priority 2 memos had 86 DOT-specific findings. The
sampling allowed us to estimate the percentage of DOT-specific findings that had
actions taken with 90 percent confidence and +/- 4 percent precision for the
96 grant recipients in our universe.

25
     The top 100 are based on a 2008 OIG analysis that identified 96 grant recipients that received more than 80 percent
     of DOT awards. These grantees are listed in Exhibit B.


EXHI BI T A. SCOPE AND METHODOLO GY
                                                                                14



EXHIBIT B. DOT’S TOP 100 GRANTEES
OIG’s analysis of expenditures in fiscal year 2008 revealed that 96 of DOT’s
2,500 grantees—the grantees that received the most funds, or the “top 100”—
received over 80 percent of the Department’s grant awards. They also received
$30 billion of the $37 billion in ARRA funds awarded as of September 30, 2010.

Table 3. Top 100 DOT Grantees by Operating Administration
Grantee                                                               2008 Award
Federal Highway Administration
State of California                                                $ 2,814,265,826
                 1
State of Texas                                                      2,635,031,749
State of Georgia/State Accounting Office                            2,299,714,217
                                        1
Michigan Department of Transportation                               2,267,670,000
State of Florida                                                    2,065,662,526
New York State                                                      1,624,760,000
Commonwealth of Pennsylvania                                        1,348,910,000
                                                               1
State of Illinois Governor’s Office of Management and Budget        1,320,336,000
State of Ohio                                                       1,081,860,630
                     1
State of Missouri                                                     927,029,135
                             1,2
State of Minnesota                                                    880,477,314
State of North Carolina                                               853,575,132
Department of Accounts - Commonwealth of Virginia                     849,912,840
State of New Jersey                                                   825,761,809
State of Louisiana                                                    742,722,490
State of Alabama                                                      733,988,292
                             1
State of Wisconsin                                                    720,462,394
State of Washington C/O Office of Financial Management                715,630,964
                         2
State of Maryland                                                     708,977,559
State of Indiana                                                      705,763,352
Commonwealth of Kentucky                                              698,762,091
State of Mississippi                                                  695,476,333
State of Tennessee                                                    644,116,535
State of Oklahoma                                                     623,567,696
State of Arizona                                                      552,154,453
                 1
State of Alaska                                                       513,903,766
                                   1
State of North Dakota                                                 473,564,204
Commonwealth of Massachusetts                                         464,654,522




EXHI BI T B. DO T'S TOP 100 GR AN TEES
                                                                       15


Grantee                                                      2008 Award
                       2
State of Connecticut                                         463,041,136
State of Colorado                                            447,860,135
State of Oregon                                              430,965,012
State of Kansas                                              417,759,990
State of Arkansas                                            400,650,404
South Carolina Department of Transportation                  371,197,237
State of West Virginia                                       317,961,748
State of Idaho C/O Office of State Controller                311,714,513
State of Iowa                                                298,744,081
State of Utah                                                294,355,178
State of Nebraska                                            260,763,487
New Mexico Department of Transportation                      260,339,772
State of Nevada                                              230,046,559
                           1
State of South Dakota                                        211,025,525
State of Hawaii, Dept. of Transportation, Hawaii Division    192,339,528
Wyoming Department of Transportation                         189,352,921
State of Rhode Island and Providence Plantations             179,964,431
State of New Hampshire                                       158,324,890
State of Maine                                               144,876,581
State of Vermont                                             143,806,652
State of Delaware                                            133,244,445
Puerto Rico Highways and Transportation Authority            129,055,370
State of Wyoming                                                 119,893
Federal Transit Administration
Metropolitan Transportation Authority                       1,577,145,284
New Jersey Transit Corporation                               771,292,003
Chicago Transit Authority                                    367,196,976
                                                 1
The Port Authority of New York and New Jersey                300,581,197
Southeastern Pennsylvania Transportation Authority           284,501,000
Massachusetts Bay Transportation Authority                   273,773,869
Los Angeles County Metropolitan Transportation Authority     251,694,089
Washington Metropolitan Area Transit Authority               231,359,612
                               1
City of Phoenix, Arizona                                     191,729,226
Dallas Area Rapid Transit                                    170,052,146
Tri-County Metropolitan Transportation District of Oregon    169,581,953
Central Puget Sound Regional Transit Authority               159,461,254
Milwaukee County                                             137,044,973



EXHI BI T B. DO T'S TOP 100 GR AN TEES
                                                                              16


Grantee                                                             2008 Award
Valley Metro Rail, Inc.                                             130,496,339
Metropolitan Council                                                111,004,601
Utah Transit Authority                                              110,182,298
Port Authority of Allegheny County                                  107,432,455
                                    1
City and County of San Francisco                                    102,973,456
Metropolitan Atlanta Rapid Transit Authority                          99,926,242
METRA                                                                 98,677,859
Orange County Transportation Authority                                96,759,533
City of Charlotte                                                     87,087,447
King County                                                           86,544,156
Regional Transportation District                                      85,801,553
Miami-Dade Transit                                                    85,497,691
Greater Cleveland Regional Transit Authority                          83,640,189
Metropolitan Transit Authority of Harris County, TX                   76,164,000
Federal Aviation Administration
State of Hawaii Department of Transportation-Airports Division        53,270,351
City of Atlanta                                                       51,096,059
Metropolitan Washington Airports Authority                            46,759,878
Port of Seattle                                                       37,184,650
Gulfport-Biloxi Regional Airport Authority                            37,126,966
City of Inglewood                                                     33,398,773
Wayne County Airport Authority                                        31,890,569
City of Saint Louis, Missouri                                         31,780,666
Dallas/Fort Worth International Airport Board                         31,673,483
City of Philadelphia                                                  31,659,760
Los Angeles World Airports                                            29,638,632
Panama City-Bay County Airport and Industrial District                29,601,099
Port of Oakland                                                       26,657,328
Cincinnati/Northern Kentucky International Airport                    25,398,744
Antonio B. Won Pat International Airport Authority, Guam              24,287,787
Memphis-Shelby County Airport Authority                               23,888,000
City of San Antonio                                                   20,961,038
City of Kansas City, Missouri                                         20,774,827
Total                                                            $43,610,871,328
1
 Grantee was also a top 100 recipient for FAA
2
 Grantee was also a top 100 recipient for FTA
Source: SAPO




EXHI BI T B. DO T'S TOP 100 GR AN TEES
                                                                                          17


EXHIBIT C. TOP 100 GRANTEES FOR ARRA AWARDS


Table 4: ARRA Awards, as of September 30, 2010, by Operating
Administration
                     Top 100 Grantees’
OA                      ARRA Awards              Total ARRA Awards       Percentage
FHWA                   $ 25,982,405,444              $ 27,008,851,994            96%
FTA                         4,052,472,810              8,778,730,416             46%
FAA                          301,939,124               1,097,622,933             28%
Totals                 $30,336,817,378               $36,903,955,343             82%

Source: Compiled by OIG from OA data on www.dot.gov/recovery


Table 5: Grantees Who Received Highest ARRA Awards, as of
September 30, 2010, by Operating Administration
Grantee                                                                  ARRA Award
                                                                        ($ in millions)
FHWA
California                                                                     $2,542
Texas                                                                            2,240
Florida                                                                          1,347
Pennsylvania                                                                     1,029
New York                                                                           951
Illinois                                                                           937
Ohio                                                                               920
Georgia                                                                            903
Michigan                                                                           856
North Carolina                                                                     730
FTA
New Jersey Transit Corporation                                                   $423
Los Angeles County Metropolitan Transportation Authority                           312
Massachusetts Bay Transportation Authority                                         274
Chicago Transit Authority                                                          242
Washington Metropolitan Area Transit Authority                                     202
Southeastern Pennsylvania Transportation Authority                                 191
Connecticut Department of Transportation                                           156
Maryland Transit Administration                                                    152
Commuter Rail Division of Regional Transportation Authority (METRA)                141



EXHI BI T C. TOP 100 GR ANTEES FOR ARR A AW ARDS
                                                                       18


Dallas Area Rapid Transit                                        140
FAA
State of Alaska                                                  $74
Port Authority of New York and New Jersey                        20
State of Texas                                                    18
City of Atlanta                                                  15
Maryland DOT and Maryland Aviation Administration                15
State of Hawaii-Department of Transportation-Airports Division   15
Wayne County Airport Authority                                   15
Metropolitan Washington Airports Authority                       15
Port of Oakland                                                  15
City and County of San Francisco                                 15

Source: Compiled by OIG from OA data on www.dot.gov/recovery




EXHI BI T C. TOP 100 GR ANTEES FOR ARR A AW ARDS
                                                                   19



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                             Title

Earl C. Hedges                   Program Director

Ingrid R. Harris                 Project Manager

Marguerite Nealon                Senior Auditor

LaKarla Lindsay                  Senior Auditor

T. Wayne Summers                 Auditor

Gina Sammons                     Auditor

Petra Swartzlander               Senior Statistician

John Sysak                       OIG National Single Audit Coordinator

Susan Neill                      Writer-Editor




EXHI BI T D. M AJOR CONTRI BUTO RS TO THI S REPORT
                                                                                  20




APPENDIX. AGENCY COMMENTS




DOT Oversight Processes and Performance Metrics for Single Audits are
Effective

Based on a programmatic analysis completed in 2008 and in consultation with the
operating administrations and the Office of Inspector General (OIG), the Office of
the Secretary completely revamped the processes for managing, addressing and
tracking actions taken on single audit report recommendations. While the
management processes are not described in the OIG report, they have produced
enormous benefits. The Department of Transportation (DOT) now has strong,
consistent and effective processes for managing single audit recommendations and
has demonstrated results to match. DOT is unique among Federal agencies in its
relationship and interaction with the OIG in the area of single audits. The DOT
OIG plays a far more substantial role in this Department's single audit process than
any other in the Federal government. We believe that this role has benefitted the
Department over the years and can be built upon to further strengthen both the
process and overall grant oversight. As discussed in the report, single audit
findings are classified by OIG into one of two categories-priority 1 (P1) or priority
2 (P2) findings. The P1 classification indicates more significant findings or
questioned costs exceeding $10,000. The lower priority P2 classification indicates


Appendix. Agency Comments
                                                                                 21


that DOT is not the cognizant agency, questioned costs are less than $10,000, or
findings are procedural. The OIG report devotes inordinate attention to the P2
single audits even though it has long recognized the limitations of these reviews in
terms of programmatic significance and considerable quality concerns.

DOT Single Audit Actions Demonstrate Results

During the current calendar year, DOT is on track for resolving and closing
another record number of single audit recommendations. Based on the results of
an internal review in 2008, we identified and implemented new metrics for
managing single audits and new systems and processes for handling and
addressing single audit recommendations.

Record Number of Single Audit Recommendations Closed

The Department implemented systematic monthly metrics tracking the status of
management action for single audit recommendations which provide unequivocal
performance measures. Specifically, in order to evaluate progress, we began
tracking and disseminating metrics describing activity on single audits in monthly
Recommendation Action Tracking System (RATS) reports. In 2009, we closed
(final action complete) 107 single audit recommendations. In 2010, results
increased by 56 percent to 167 recommendations closed in the calendar year.
During the current year, our results through the end of September show continued
improvement and are up about another 40 percent compared to this point in the
prior year. In addition to improved tracking, the Department has completely
revised the process used to address single audit recommendations.

Process Improvements Provide Comprehensive and Consistent Oversight

Single audit recommendations receive focused management attention within the
structure of consistent processes and effective tracking. With the process
improvements implemented in 2009, single audits are now efficiently distributed
to field and headquarters officials, are tracked at least monthly, receive prompt
management attention, and are resolved timely. There are clear expectations and
processes for resolving single audit recommendations within 60 days. OST
worked jointly with the operating administrations and the OIG to design these
standardized processes for responding to single audit recommendations at both the
resolution and final action stages. These processes have been fully implemented
and are demonstrating results. As of September, despite a massive influx of single
audit recommendations relating to the American Recovery and Reinvestment Act
of 2009 (Recovery Act), 83 percent were resolved. Furthermore, of the 17 percent
unresolved, almost all of these were newly received, with only 10
recommendations, or 4 percent of the total, pending unresolved for more than 60
days. These extraordinary results are due to responsive management attention,


Appendix. Agency Comments
                                                                                     22


meaningful performance metrics, and strong systems that provide consistent and
timely results.

Unique Relationship with OIG on Single Audits Offers Benefits and Risks

The Department is unique among Federal agencies in benefitting from the OIG's
direct hands-on participation in the single audit process. As a result, DOT
maintains perhaps the most effective and credible single audit process throughout
government. In order to help ensure that single audits are received, sorted and
distributed appropriately, OIG downloads reports from the Federal Audit
Clearinghouse and classifies reports as P1 or P2. The OIG also tracks and verifies
the adequacy of management's efforts to ensure that actions taken are complete
and appropriately documented. To the benefit of the Department's credibility with
regard to action taken to address single audit findings, OIG reviews the
information submitted and closes only those that are clearly and sufficiently
documented. Each of these functions is extremely useful and valuable, but each
also introduces risk.

Along with the strengths offered by this unique relationship, there are also risks
that require strong communication and coordination to mitigate. For example,
up until recently, P2 audits were distributed by OIG under the heading of
"information," which offered the potential for confusion as to the expectations
for management action. We worked with OIG to clarify the distribution
language for these reviews to ensure expectations were clarified. More recently,
the OIG, which screens single audits to determine whether they should be P1 or
P2, implemented a unilateral revision to the criteria that nearly doubled the
number of P1 recommendations pending. While the change was based on the
good intention of fully tracking recommendations relating to Recovery Act
funds, it resulted in numerous low priority, process-oriented recommendations
being tracked as top priority, diverting management and OIG attention.
Outcomes could have been improved through better coordination and
consultation among all participants in the process. Finally, achieving timely
action on OIG audit recommendations also means that it is critical for OIG to
maintain adequate resources devoted to both identification of audits,
prioritization, distribution, tracking and especially close-out. We have been
pleased to see additional OIG resources now available for single audit review
and closeout.

Widespread Quality and Reliability Issues with Single Audits

While management recognizes its responsibilities with regard to all single audits,
before establishing additional requirements, as suggested in the report, particularly
with regard to the lower priority P2 audits, it is important to recognize some
context relating to the reliability of these reviews. Single audits are not conducted

Appendix. Agency Comments
                                                                                                              23


by government entities such as the Office of Inspector General, but are obtained
directly by grantees and performed by private accounting firms. Concerns about
the quality of single audits have been documented over the years both by the
Government Accountability Office and Inspectors General. In 2007, the
President's Council on Integrity and Efficiency (PC IE) conducted a national
review of single audits and highlighted significant concerns with single audit
quality. 1 Specifically, it found that more than one third of single audits conducted
by accounting firms for larger entities had significant deficiencies, were of limited
reliability, or they were completely unacceptable. More significantly, PCIE found
only 48 percent of single audits conducted for smaller entities were acceptable and
could be relied upon with the remaining 52 percent either unacceptable or of
limited reliability. The types of problems identified ranged from inadequate testing
to a lack of information necessary to support the validity of the report's findings.
While the stratification employed in the PCIE study is not identical to the PIIP2
approach used by the OIG, the issues with single audits in general, and especially
with the smaller entity stratum, raise a cautionary note that must be considered
before expanding their use, such as using them as a basis for enforcement actions,
as advocated in the OIG report.

Single Audits are One of Many Tools Used for Grant Oversight

Each operating administration has tailored its grant oversight programs to provide
active and effective oversight of grantees. These include Triennial Reviews of
grantees in FTA, intensive management reviews by NHTSA, and the Financial
Integrity Review and Evaluation (FIRE) program in FHWA. These oversight
programs provide more detailed and comprehensive information regarding
grantees, their use and management of Federal funds relating to DOT programs,
and remedial actions necessary than single audits. As a result, it is critical that the
OIG report present perspective on the role that single audits play in overall
grantee oversight. As currently structured, the reader might believe that single
audits provide the sole tool for grant management.

Additional oversight conducted under these programs is vital in light of the fact
that single audits may produce information that is not completely reliable. These
issues go beyond the general concerns discussed above. Within the sample group
used by OIG for this report, fully 39 percent of the P1 recommendations that
included questioned costs were found to have significant errors upon
management's further review and action, and no recovery was necessary. Further,
even in the remaining questioned cost recommendations where recoveries were
accomplished, on average, it was only necessary to recover 52 percent of the
questioned amount. OIG was in agreement with all of these actions and closed the

1
    "Report on National Single Audit Sampling Project," President’s Council on Integrity and Efficiency, Executive
     Council on Integrity and Efficiency, June 2007.


Appendix. Agency Comments
                                                                                  24


recommendations. These variations raise further questions about the utility of
single audit findings for grant management decision making, when considered
without the greater context of overall oversight tools.

Finally, the level of information provided from single audits is at best a starting
point for further consideration, and is not a sole, decisive factor in designating a
grantee as high risk or for determining whether enforcement actions, such as
withholding Federal funds, should be taken. For example, the OIG report cites the
State of Hawaii, which had 12 findings during its study period. The report offers
that these findings should have been used to "take action" with regard to the
grantee. However, the report does not mention that all twelve of the single audit
findings involved procedural issues and there were no questioned costs associated
with any of these findings. Further, the 12 findings fell into different categories,
did not exhibit trends, and were all closed. Given data collected through its robust
FIRE oversight program and corporate risk assessment process, among other
oversight tools used, FHWA maintains its position that these 12 procedural single
audit findings did not demonstrate material or systemic weaknesses that alone
warranted consideration of high risk designation. Enforcement actions, such as
withholding Federal funds, are a serious matter that require detailed consideration
beyond that available in single audits.

In summary, there is much about this OIG draft report with which we do not
agree. This includes its broad statements of causality without apparent support and
allegations of insufficient action based on inaccurate or outdated information. We
disagree with the undue emphasis placed on low priority, procedural findings from
reports where the Department is frequently not the cognizant entity. We do not
agree with the absence of any recognition of the comprehensive and the significant
changes the Department has already fully implemented for the single audit
process, and the results they have achieved. We do agree that single audits, despite
their associated issues, do provide one useful tool for grant management. The
Department has demonstrated its commitment to optimizing the use of single
audits as one of its management tools and will continue to apply innovative
solutions making the best possible use of single audits and other oversight tools.




Appendix. Agency Comments
                                                                                  25


RECOMMENDATIONS AND RESPONSE

Recommendation 1: Require operating administrations to use management
decisions that clearly communicate the expectations and timetables for corrective
actions in accordance with Circular A-133. Priority 2 management decisions
should incorporate the same checklist currently in use for Priority 1 findings.

Response: Concur in part. We agree that management decisions for single audit
findings, to the extent that the agency is cognizant, should include clear
expectations for actions and milestones. These expectations are unequivocal with
regard to P1 single audit recommendations, thanks to the process and oversight
changes that have already been implemented. However it is not clear that the
format used for management action would be appropriate for P2 recommendations
as modification would be required to the reporting requirements elements. This
issue will be explored during the December Team of Transportation Audit
Liaisons (TOTAL) meeting. Best practices for P2 recommendation management
will be identified and disseminated among the operating administrations.
Finally, expectations will be reemphasized via guidance memorandum expected to
be issued prior to January 30, 2012.

Recommendation 2: Require operating administrations to record and monitor
their grantees' target action dates and to prepare a closeout document when the
actions are complete.

Response: Concur in part. We agree that actions taken by the grantee to fulfill
the intent of recommendations for which DOT is the cognizant entity, should be
documented in the files, along with target action dates. Based on processes and
oversight applied for P1 recommendations, this should already be occurring. Since
the Department may not be the cognizant entity for all P2 recommendations, it
would only be constructive to focus on those single audit recommendations that
pertain directly to the Department. We will explore the potential for ensuring that
files are notated with regard to cognizance, and that those recommendations
pertaining to the Department include information in the file relating to milestones
and actions taken. These expectations will be reinforced via the guidance
memorandum expected to be issued prior to January 30, 2012.

Recommendation 3: Require operating administrations to ensure timely recovery
of questioned costs by setting target completion dates for reviews and possible
cost recovery in accordance with Circular A-133.

Response: Concur. The Department issues timely resolution of single audit
findings and works to ensure actions are completed as expeditiously as possible, in
light of the complexity of the actions involved and in compliance with A-133. All
P1 single audit recommendations are promptly resolved and tracked with specific

Appendix. Agency Comments
                                                                                  26


milestones. P2 single audit recommendations where DOT is the cognizant entity
are also handled as appropriate. The Department will reinforce its expectations for
compliance with OMB Circular A-133 for all single audits as appropriate in the
memorandum to be issued prior to January 30, 2012.

Recommendation 4: Establish best practices for audit finding monitoring
systems. At a minimum, OST should establish additional guidance on monitoring
systems, including capabilities for identifying high-risk grantees based on past-due
findings and overall finding histories.

Response: Concur in part. Operating administrations have unique program
criteria as defined in law and therefore maintain their own tracking systems as
necessary to suit their specific program requirements. It remains their prerogative
to ensure that the systems employed meet their specific grant management
oversight needs. For example, FT A and FHW A already maintain systems that
include detailed tracking information for single audits. Using PTA as an example,
it tracks single audit findings within the context of its comprehensive oversight
tracking system, and we do not envision a circumstance, based on available
information, where OST would provide guidance that might contradict tracking in
this effective and well established system. Further, some operating administrations
do comparatively less grant-making, are rarely cognizant, and do not require
complex, stand alone tracking systems, for the small handful of single audit
recommendations for which they are cognizant. However, as an alternative, we are
taking the following actions. First, in our memorandum to be issued by January
30, 2012, the Department will reiterate its expectations that operating
administrations track management decisions and milestones relating to all single
audits, in a manner that best suits its operations, to ensure that actions are taken
with regard to findings with which we are the cognizant agency. Secondly, over
the last few years, the Office of Audit Relations has been convening TOTAL
meetings to share best practices with regard to single audit practices. This forum
has already proven effective as an opportunity to highlight best practices and
exchange information across operating administrations. As described earlier in this
response, the December meeting will be used to focus on best practices for single
audits, including those pertaining to tracking.

With regard to high risk grantees, we do not agree that any additional guidance
is necessary beyond that already available within 49 CPR 18.12, which
enumerates a clear set of criteria for determining whether a grantee should be
considered high risk. We have determined that these criteria outlined in
regulation are sufficient for this purpose.

Recommendation 5: Establish guidelines for when enforcement actions should be
taken if grantees fail to comply with grant awards and conditions. These
guidelines should address time lines and severity of the issue.

Appendix. Agency Comments
                                                                                  27


Response: Concur in part. Existing Federal laws and regulations (e.g. 23 USC,
23 CPR and 49 CPR) clearly define when enforcement actions should be taken if
grantees fail to comply with grant awards and conditions. In addition, there are
established Departmental and grant specific guidelines that are typically specific to
the statutory authority relating to the grant and are a fundamental part of grant
management. The OIG discussion relating to this recommendation alludes to
matters of significance but offered no discussion of the materiality of the findings,
particularly with regard to the context of the overall grant. Further, the report
failed to provide context of operating administration grant management and the
role that single audits playas discussed extensively earlier in this response. To
imply, as stated on page 9, that FHW A did not act "solely on the basis of single
audit findings," was some sort of lapse in oversight does not recognize the other
more focused and significant tools used to oversee grantees. Nonetheless, to
ensure that operating administrations make full and appropriate use of single audit
findings in their overall rubric of grant management, the memorandum to be
issued by January 30, 2012 will serve to reemphasize the role that OMB Circular
A-l33 establishes for single audit findings.




Appendix. Agency Comments
